IN THE
SUPREME COURT OF THE UNITED STATES
)
TENNESSEE, BY AND THROUGH THE
)
TENNESSEE GENERAL ASSEMBLY, ET AL., )
Petitioners, )
)
v.
)
DEPARTMENT OF STATE, ET AL.,
)
Respondents. )
)

No. 19-1137
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the
Sixth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the “Brief Amicus
Curiae of Immigration Reform Law Institute in Support of Petitioners” filed on behalf of
Immigration Reform Law Institute in the above-captioned matter contains 2,975
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 16, 2020.

/s/ Lawrence J. Joseph
Lawrence J. Joseph
1250 Connecticut Ave, NW, Suite 700-1A
Washington, DC 20036
Tel: (202) 355-9452
Email: lj@larryjoseph.com
Counsel for Amicus Curiae

